July 29, 2011


TO:             Federal Co-Chair
                ARC Executive Director
                ARC General Counsel

FROM:           Hubert Sparks
                ARC Inspector General

SUBJECT:        Report on the Appalachian Regional Commission’s Performance Measures
                OIG Report Number, 11-07


The report highlights some issues related to ARC’s voluntary implementation of the Government
Performance and Results Act and includes recommendations pertaining to identifying and updating actual
results and use of performance results.

We appreciate the significant contributions of the Department of Commerce Office of Inspector General
who performed much of the work that made this report possible.

The ARC response to the draft report, including actions applicable to some recommendations and OIG
follow-up comments, are included in the report.




Hubert Sparks
Inspector General




Attachment
                Office of Inspector General


Inspection Report on the Appalachian Regional Commission's
                   Performance Measures




            Appalachian Regional Commission




                       July 29, 2011




                   Inspection Report 11-07
                                                           Table of Contents


Executive Summary ...................................................................................................................... 1
Background ................................................................................................................................... 3
Findings.......................................................................................................................................... 5
   Reporting Performance Results................................................................................................... 5
      ARC Reports Grantee Estimates, Not Actual Results ............................................................. 5
      Reported Results Are Unverified ............................................................................................ 7
      ARC Reports Total Results for Split-Funded Projects .......................................................... 10
   Use of Performance Results ...................................................................................................... 11
   Scope of Performance Metrics .................................................................................................. 12
Recommendations....................................................................................................................... 15
   Management's Response to Draft Report .................................................................................. 17
   Office of Inspector General Comments .................................................................................... 20


Appendix A: Objectives, Scope, and Methodology.................................................................. 21
Appendix B: ARC Performance Validation Program- Project Selection ............................. 22
                                      Executive Summary


The objectives of this inspection were to assess ARC’s performance metrics and the associated
results, particularly their quality, recording accuracy, reporting accuracy, and their usage. This
report presents three findings regarding ARC’s performance metrics, reporting of performance
results, and use of performance results. ARC voluntarily implemented the Government
Performance and Results Act (GPRA) and is continuing progress towards full implementation.

ARC obtains projected performance results from grantees at several stages throughout the life of
a project. However, for actual performance results, which are also provided by grantees,
improvements are needed with respect to verifying the accuracy of and for disclosures regarding
the completeness and the accuracy of reported results information. ARC’s policies and
procedures should assure that it obtains actual performance results from grantees that are
accurate, consistently measured, and adequately supported.

We found that ARC reports grantees’ initial estimates of performance results in its Performance
and Accountability Report (PAR) in lieu of reporting actual results. The estimated performance
results reported in ARC’s PARs are not being updated with new results once actual performance
information is available. We also observed that ARC includes 100 percent of the results reported
by grantees, even though ARC provides less than 100 percent of the project funding. This results
in an overstatement of results by ARC and contributes to double-counting of results by OMB,
who also receives performance results from ARC’s partner organizations. We also found a
significant proportion of ARC’s funded projects were not included in the metrics reported in the
PAR, and a significant proportion of projects did not have any projected performance metrics in
ARC’s grants management system, which is used for tracking program results.

The PAR does not include several required disclosures including an approximate date when
actual performance information will be available and an assessment of the completeness and
reliability of the reported performance data. Disclosures regarding ARC’s use of performance
results, the level of assurance obtained from validation visits and project evaluations, and the
project selection used in validation visits could be improved.

Our review did not identify systematic or routine use of performance data or evidence that
performance results were used by ARC or its state partners to guide funding choices or make
programmatic decisions.

ARC is currently making improvements that will resolve some of the issues noted. Our report
compliments ARC’s efforts and includes seven recommendations covering ARC’s policies and
procedures, use of performance information, and reporting of performance results.




                                                 1
In response to the draft report ARC provided comments, copy included, which identified planned
actions consistent with some recommendations. The response noted that ARC believed prior
implementation actions on other noted issues were in line with GPRA provisions and that cost
factors would substantially impact implementation of some additional recommended actions.

We recognize that ARC has allocated and expended substantial resources for voluntary GPRA
implementation that has resulted in major actions as reflected by the annual Performance and
Accountability Reports, and that cost benefits are a factor when considering additional actions.
We concur with ARC cost concerns and recommend that for actions ARC deems unreasonable in
relation to costs and benefits that consideration be given to using the GPRA alternative form
procedure with respect to performance measurement and results.




                                               2
                                         Background


ARC is a cooperative partnership of federal and state governments legislated by Congress in the
Appalachian Regional Development Act of 1965 (ARDA). ARC was established to improve the
lives of people living in Appalachia, primarily through fostering economic growth and
development. Congress provides funding to ARC to make grants benefitting a thirteen state
region encompassing Appalachia.

ARC follows federal guidance from the Government Accountability Office (GAO) and the
Office of Management and Budget (OMB) in its financial management and its operation of a
federally funded grant program. ARC is a designated federal entity and voluntarily complies with
the Government Performance Results Act of 1993 (GPRA).

The GPRA was enacted to improve program performance, and requires agencies to develop
strategic plans and prepare related annual performance plans and annual performance reports.
The GPRA Modernization Act of 2010 was enacted in January 2011 to, among other purposes,
update the requirements for assessing agency performance and improvement.

On August 24, 2004, ARC approved Moving Appalachia Forward: Appalachian Regional
Commission Strategic Plan 2005 – 2010, which lists the following four general goals in
furthering the agency’s mission:

   1. Job Growth – Increase job opportunities and per capita income in Appalachia to reach
      parity with the nation.
   2. People – Strengthen the capacity of the people of Appalachia to compete in the global
      economy.
   3. Infrastructure – Develop and improve Appalachia’s infrastructure to make the Region
      economically competitive.
   4. Highways – Build the Appalachian Development Highway System to reduce
      Appalachia’s isolation.

Each fiscal year, ARC submits to the OMB annual performance goals for projects to be funded
in coming years and reports on progress meeting its goals by including a performance report in
the annual Performance and Accountability Report (PAR).

In addition to the four general goals listed above, ARC has also established two additional sub-
goals: (1) leveraging non-ARC project funding and private non-project investments resulting



                                                3
from the completion of ARC-funded projects, and (2) targeting ARC funds to benefit distressed
counties and areas. Progress towards these goals are measured and reported for each of the four
general goals.

ARC’s efforts to obtain performance results, some of which help ARC meet compliance with
GPRA standards, span several different phases of the project life-cycle and include the
following:


   •   During the grant approval process, grantees estimate projected outputs and outcomes.
       The estimates are recorded in ARC’s grant management system (ARC.net) as projected
       outputs and outcomes.
   •   At grant close-out, the grantees’ final reports to ARC include actual project outputs and
       outcomes. ARC records these results in ARC.net as actual outputs and outcomes.
   •   During validation visits of 40 to 60 projects funded two to three years earlier, ARC staff
       survey grantee management about project results, including previously reported outputs
       and outcomes. ARC interviews grantee management and other project participants and
       reviews the methodology for how results are compiled. ARC records these results in
       ARC.net as validated outputs and outcomes.
   •   During independent project evaluations conducted by contractors hired by ARC to
       ascertain the benefits of ARC initiatives and sub-programs. ARC typically funds one
       evaluation per year which generally covers a five year period for a specific ARC
       initiative or program type. ARC does not record these results in ARC.net.




                                                4
                                                    Findings



Reporting Performance Results

      ARC Reports Grantee Estimates, Not Actual Results

During our review, we noted that ARC reports grantees’ estimates of projected performance
results in its PAR. The performance results reported in the prior-year’s PARs are not being
updated in the current-year PAR, but instead are being rolled forward. Additionally, the PAR
does not include an approximate date when the actual performance information, sufficient to
make an accurate comparison with performance goal targets, will be available, or provide an
assessment of the completeness and reliability of the reported performance data.

The Government Performance Results Act of 1993 (GPRA) states that each agency’s annual
performance plan shall provide a basis for comparing actual program results with the established
performance goals. Each program performance report shall set forth the performance indicators
established in the agency performance plan, along with the actual program performance achieved
compared with the performance goals expressed in the plan for that fiscal year. 1

Additionally, OMB Circular No. A-11 states that the annual performance report (APR) required
by GPRA provides information on the agency’s actual performance and progress in achieving
the goals in its strategic plan and performance budget. 2 The required elements of the annual
performance report include; 3

      •   A comparison of actual performance with the target levels of performance at least for the
          prior year and an analysis and explanation of the causes of any variance or change in
          trends including plans and schedules for addressing the problem.
      •   An assessment by the agency head of the reliability and completeness of the performance
          data included in the report.
      •   Identify those performance goals where actual performance information is missing,
          incomplete, preliminary, or estimated. For such goals, the APR should indicate the
          approximate date when the actual performance information, sufficient to make an
          accurate comparison with performance goal target levels, will be available.



1
    Government Performance Results Act of 1993, Section 4(b)
2
    OMB Circular No. A-11, Part 6, Preparation and Submission of Strategic Plans, Annual Performance Plans, and
    Annual Program Performance Reports, Section 230.1(a)
3
    OMB Circular No. A-11, Section 230.2(a)

                                                         5
During the grant approval process, grantees are required to identify which of the four general
goals – job growth, people, infrastructure, or highways – the grant will help to advance, and
estimate the projected outputs and outcomes that will be achieved. This information is entered
into ARC’s database and becomes the basis for the annual performance report included in the
PAR. ARC clearly states in the PAR that these reported results are estimates. When grants are
closed-out, the final report to ARC includes actual results, as reported by the grantee, which is
also entered into the database.

Although the original reporting of performance information may be missing, incomplete, or
preliminary, once actual performance information is available it should be reported in the
subsequent annual performance reports. 4 As indicated above, projections from grantees form the
basis for the performance results reported in the PAR, however, as grants are closed out and
actual results are reported, ARC makes no changes to the performance results reported in the
PAR. For example, the fiscal years 2007, 2008, and 2009 PARs all reported the original estimate
of 28,642 jobs created/retained for fiscal year 2007.

Included in the PAR are the results of validation visits and independent project evaluations.
Generally, ARC obtains updated outcomes of 40 to 60 projects funded two to three years earlier,
allowing time for most projects to be completed. Project evaluations of ARC initiatives and sub-
programs are performed by independent or external organizations to evaluate the outcomes and
overall effectiveness of projects. Results of validation visits and project evaluations are reported
in the PAR; however, prior-years’ performance estimates are not updated in the PAR and do not
reflect actual results reported by grantees at project close-out, even though recorded in ARC’s
grants management system.

ARC management has stated that ARC is in compliance with OMB reporting requirements
because OMB accepts its budget justification report each year. However, acceptance of the
budget justification report by OMB does not by itself demonstrate compliance with GPRA or
OMB Circular A-11, both of which clearly state that actual performance results shall be
compared to performance goals in the APR.

ARC has conveyed to us that most projects require time after project close-out to develop actual
results. Therefore, the actual performance results reported by grantees at close-out are
incomplete and should not be reported in the PAR. But OMB requires that actual results, and the
time at which future results will be available, be disclosed.4 Validation visits and project
evaluations are currently the only methods ARC utilizes to report actual performance results.
Currently, ARC is in the process of developing a survey that will be sent to all projects at
designated intervals after close-out to obtain more complete results information. We believe, this
survey, and usage of the actual results reported at project close-out will provide the complete



4
    OMB Circular A-11, Section 230.2(b)

                                                 6
information ARC desires and recommend that ARC use these sources of information to provide a
more complete reporting of actual results in the PAR.



      Reported Results Are Unverified

ARC obtains estimated performance results from grantees during project acceptance. Actual
performance results are reported by all grantees at project close-out and updated results are
obtained for selected projects during validation visits and project evaluations. ARC does not
verify the accuracy of performance results reported by grantees. ARC also does not provide
adequate disclosure of the completeness and accuracy of reported performance results.

Performance data must be accurate and reliable in order to measure the progress towards
achieving performance goals. Proper verification and validation of performance data aids in the
accuracy and reliability of performance information, reduces the risk of inaccurate information,
and provides confidence that the information is credible. OMB Circular A-11 describes
verification as “a process of checking or testing performance information to assess other types of
errors…”, and validation as “an effort to ensure that data are free of systematic error or bias and
that what is intended to be measured is actually measured.” Agencies should have validation and
verification techniques that will ensure the completeness and accuracy of reported performance
information. The recommended verification and validation factors include having; well defined
and documented source data, available and used performance metric definitions, documented and
available collection standards, documented and followed data entry methodology, readily
available and maintained supporting documentation, verified data, and certifications by
responsible officials that data accuracy has been checked each reporting period. 5

We observed that ARC has a list of the most commonly used performance outputs and outcomes
for standardized project types. The list does not define how performance results should be
measured or what documentation should be maintained as support. ARC states that project
coordinators are aware of the methodology to measure performance metrics and that guidance is
provided throughout the grant process. However, during an evaluation of ARC’s tourism,
cultural heritage and natural asset-related projects, an ARC contractor found that it was likely
that grantees “do not have robust or consistent understanding of the measures that ARC focuses
on. Unless everyone is on ‘on the same page,’ it is unlikely that reported results can be
meaningfully compared to the original projections.” 6 Without established, consistent
methodologies for measuring performance results that are available to grantees, ARC is at risk of
receiving inaccurate and inconsistent performance information.




5
    OMB Circular A-11, Section 230.5
6
    Program Evaluation of ARC’s Tourism, Cultural Heritage and Natural Asset-Related Projects, September 2010

                                                        7
ARC does not have written procedures for entering performance information into ARC.net.
During our review, we compared the performance metrics listed in Project Approval Memos to
information in ARC.net for 20 projects. We found differences in six of the projects and an
additional six projects that did not have assigned performance metrics. Furthermore, ARC
identified 76 changes that were necessary during a review of performance information in
ARC.net prior to compiling results for the fiscal year 2010 PAR. A documented and followed
methodology for entering data into ARC.net may reduce these errors and the potential that such
errors are included in reported performance results.

ARC asserts that it obtains evidence of the accuracy of performance results through validation
visits and project evaluations conducted by independent contractors. However, our review of the
scope and methodology of several recent project evaluation reports did not provide any evidence
that the contractors are reviewing documentation to support grantees’ reported performance
results. Furthermore, we found that the validation visits do not provide evidence of the
completeness and accuracy of self-reported performance results and that ARC’s reporting of the
results should be improved.

To determine the projects that will be included in the validation visits, ARC obtains a listing of
projects from ARC.net, excluding projects for LDDs, interns, conferences, research, and the
development of plans as these projects do not have anything to visit. ARC also excludes grantees
currently being audited, projects where the grantee has closed or key personnel have left. The list
of remaining projects is circulated among the project coordinators and projects may be excluded
based on their feedback. ARC does not use statistical or random sampling, but selects projects to
visit from the remaining list, attempting to provide for geographical and project-type variety.

ARC uses a questionnaire to standardize the information collected during all validation visits.
Although the questionnaire includes a request for updated actual results, there is no specific
process or requirement to obtain supporting documentation or otherwise verify the accuracy of
reported results.

We reviewed the results of ARC’s validation visits for fiscal year 2010 in which 55 projects were
visited. ARC excluded 32 projects from the potential list of projects to visit. Based on the lack of
complete documentation for project selection and exclusion, we were unable to determine the
reason why each project was excluded. However, we noted several projects were rejected based
on the possibility that projects would not be able to support performance results. Included in the
reasons for rejection were comments such as:

    • “Not recommended – management issues”
    • “Not worth visit. Program did not have participation expected.”
    • “Not recommended – implementation issues… and inability to collect outcome data”



                                                 8
To determine the possible effects of including the rejected projects in the results of validation
visits, we obtained the actual outcomes for the rejected projects as recorded in ARC.net at
project close-out. These outcomes were combined with the validated results. Due to the lack of
complete records, we were also unable to determine whether ARC included all excluded projects
in the list of excluded projects. As shown in Table 1 below, factoring in the excluded projects
could have a significant impact on the results of the validation visits. While this example could
be considered a worst-case scenario, we believe it illustrates the possible effects of selection bias
in the validation visit results.

      Table 1. Inclusion of Rejected Projects in FY2010 Validation Visit Results
                               ARC Original VV Results                 Adjusted VV Results
                                                                            Validated/
        Performance        Projected Validated         % of      Projected    Actual       % of
            Metric          Results   Results          Goal       Results    Results       Goal
      Jobs Created/
      Retained                 12,943      11,104     85.79%        13,531      11,104    82.07%
      Students/ Trainees
      with Improvement          3,269        3,488 106.70%           5,744       3,495    60.85%
      Households
      Served                    1,586        1,621 102.21%           1,586       1,621   102.21%
      Source: OIG from ARC.net data


OMB Circular A-11 requires that significant or known limitations of performance data be
identified and described in the performance plan, including the impact the limitations have on
goal achievement and what action will be taken to correct the limitations. 7 The examples of data
limitations provided include imprecise measurement and recordings, incomplete data, and
inconsistencies in data collection procedures.

We reviewed ARC’s description of the validation visits in the PAR and found that it does not
provide any disclosure of the project selection process or state that the results of the validation
visits may not be an accurate representation of the results of the non-surveyed projects. While we
believe more projects should be eligible for further review, providing disclosure of the selection
process enables the results of validation visits to be put into better context.

ARC also describes the validation visits and project evaluations as critical components to its
GPRA compliance as they confirm actual project outcomes. 8 As ARC does not obtain
documentation supporting or otherwise confirming actual results during validation visits or
project evaluations, ARC should adjust its reporting to more accurately describe the level of
assurance obtained.


7
    OMB Circular A-11, Section 230.5
8
    ARC’s Fiscal Year 2007, 2008, and 2009 Performance Reports

                                                       9
ARC is currently working on the development of a survey that will be sent to all projects at
designated intervals after close-out. The survey will be used to obtain more complete actual
performance results than are available at project close-out. We encourage ARC to use the
surveys and/or validation visits as a method to request and obtain supporting documentation
from grantees to validate reported performance results. Doing so would also provide ARC
evidence as to the completeness and accuracy of reported performance measures.

   ARC Reports Total Results for Split-Funded Projects

During our review, we noted that ARC includes 100 percent of the results, stated as outputs and
outcomes, reported by grantees in its PAR, even though ARC provides less than 100 percent of
the project funding. In many cases, ARC funding is less than a majority of the total funding.
This results in an overstatement of results by ARC as well as contributing to double-counting of
results by OMB, who also receives performance results from ARC’s partner organizations.

In 2004, the Office of Management and Budget (OMB) reviewed ARC’s programs using the
Performance Assessment Rating Tool (PART). The PART was created to review factors that
affect and reflect program performance including program purpose and design, performance
measurement, evaluations, strategic planning, program management, and program results. OMB
did not agree with ARC’s reporting of total project results, stating:

       For example, while ARC contributes less than 6 percent of federal dollars to projects
       encouraging job creation and retention and ensuring adequate water and sewage
       infrastructure, ARC claims 100 percent credit for number of jobs created and number of
       households served. While agencies should be in no way penalized for leveraging other
       federal dollars, ARC efficiency measures should consider all federal dollars.

OMB’s analysis recommended that ARC accurately reflect its contribution to performance
results by reporting only the percentage of project results related to their funding, or finding an
alternative that would credit ARC with leveraging private investment but also allow for
comparisons with other economic development programs and federal agencies. The analysis
pointed out that if ARC reports total project results while partner agencies report results for the
same projects, total performance results will be double-counted. OMB included in its resulting
improvement plan that ARC will be “Revising performance measure methodology to eliminate
double-counting of performance due to commission and non-commission funding.”

ARC has attempted to satisfy OMB’s recommendations by including leveraged private
investment and reporting the funds provided to projects by ARC’s partner organizations. While
we agree that reporting funds leveraged from other sources is a legitimate indicator of ARC’s
impact on the region, we recommend that ARC’s reported performance results include results
attributable to both ARC and its partner organizations.



                                                 10
Use of Performance Results

Our review did not identify a systematic or routine use of performance data or that performance
results were routinely used by ARC to guide funding choices or make programmatic decisions.

The purposes of the GPRA includes improving program effectiveness and public accountability,
improving internal management, and improving service delivery by requiring managers to plan
for meeting program objectives and providing them with information about program results. 9,10
It is apparent that GPRA intends to provide managers with performance information that can be
used to improve program results. OMB Circular A-11 states that senior agency leaders should
review progress on agency priorities through goal-focused, data-driven reviews at least on a
quarterly basis. The reviews should assure that follow-up steps are taken to improve the
likelihood of realizing better outcomes and higher productivity. 11

We interviewed ARC’s Executive Director and staff from the Regional Planning and Research
Division (RPRD) and Program Operations Division (POD) to identify the uses of performance
results data at ARC. Staff mentioned ad hoc reports were written to provide performance results
information requested by stakeholders, as well as yearly meetings to discuss the results of
validation visits. However, these reports primarily used projected performance results.

ARC only reports performance information after project close-out through validation visits and
project evaluations. Therefore, if a project takes longer to develop performance results and is not
included in either process, there is no means to evaluate its results. Several staff mentioned they
would use performance results to analyze projects if ARC had more complete, actual
performance results.

Grant Coordinators said that member states have control over the selection of projects that are
submitted to ARC for approval. Therefore, managerial decisions on project selection are made
by the states on behalf of ARC. ARC personnel believes that member states are aware of
performance results through the yearly reports on the results of validation visits, program
evaluations, and the PARs. However, there is no formal process to ensure that the states are
using the performance results to shape their decisions on what projects to submit to ARC for
approval.

The ARC Code describes a joint decision-making process that balances the interests of the
Federal government with the interests of the states and their subsidiary units. States have a
primary role in the initiation of plans and projects as only programs and projects submitted
9
     Items stressed in the GPRA Modernization Act include: increased emphasis on the usage of results information,
     and the appropriate adjustment of priorities; development of quarterly reviews (and reports) and performance
     milestones and targets within the agency, and from OMB; an agency corrective action plan for unmet goals; a
     requirement to review trend information and agency goals that relate to Federal goals; and increased
     transparency.
10
     Government Performance Results Act of 1993, Section 2(b)
11
     OMB Circular A-11, Section 200.3

                                                         11
through and approved by a state can be considered by ARC. 12 States can submit project
applications for any project that complies with an approved State Appalachian Development Plan
and its Annual Strategy Statement. 13

ARC was established through the Appalachian Regional Development Act, which is codified in
Title 40 of the United States Code (U.S.C.). The Act states that ARC should, while evaluating
and prioritizing potential projects and grants, consider the extent to which projects provide for
detailed outcome measurement by which grants may be evaluated. 14 Furthermore, the Act
requires an affirmative vote by ARC’s Federal Cochairman for projects and grants to be
approved. 15 Therefore, it is within the Federal Cochairman’s authority to influence, by not voting
in the affirmative, project approval if projects are not expected to provide sufficient or adequate
performance results.

We agree that states have a primary role in the formation of state plans and the submission of
project applications to ARC. Since the use of performance information is the key element of a
successful program, we believe that a more formalized process of ensuring that states are using
performance results in their decision-making process is consistent with the use of performance
results envisioned by GPRA, the federal/state partnership outlined in the ARC code, and the
Federal Cochairman’s authority.

Agencies are required to describe if and how they use performance results data to improve
outcomes. 16 ARC asserts in its PARs that “At quarterly intervals throughout the fiscal year, ARC
staff review performance measurement data in ARC.net to better understand emerging trends,
improve data integrity, and shape policy to improve the ARC programs.” 17 Consistent with this
statement, ARC should revise its PAR to more accurately describe its use of performance data.



Scope of Performance Metrics

We found that ARC’s reported metrics generally demonstrate results, are limited to several vital
measures, respond to multiple priorities, and are linked to the responsible programs. However, a
significant proportion of ARC’s funded projects were not included in the metrics reported in the
PAR and a significant proportion of projects did not have any projected performance metrics in
ARC’s grants management system (ARC.net).




12
     ARC Code, Section 2.1.a.
13
     ARC Code, Section 5.5
14
     40 U.S.C. §14524(a)6.
15
     40 U.S.C. §14302 and 14332(c)
16
     OMB Circular A-11, Section 230.2(a)
17
     ARC’s Fiscal Year 2007, 2008, and 2009 Performance Reports

                                                      12
GPRA requires that: (1) each agency’s annual performance plan establishes performance goals to
define the level of performance to be achieved by a program; and (2) express such goals in an
objective, quantifiable, and measurable form. 18 Performance measures can be either outputs or
outcomes. Outputs are the direct products or services delivered while outcomes are the results of
those products or services. Outcomes are generally better indicators of program goals because
they are more closely related to the societal benefits of carrying out the program, whereas
outputs have more to do with process.

ARC tracks both outputs and outcomes related to its four general goals, as previously discussed.
The following outcomes are reported in the PAR: jobs created and retained, students and
workers/trainees with improvements, households served, and additional miles (net increase) of
the ADHS opened to traffic.

For each of the general goals, ARC also has the additional goals of leveraging ARC funding
through additional funding from other sources and targeting ARC funds to distressed areas.
Additional outputs and outcomes, which are tracked internally, include: businesses served,
increase in export dollars, health professionals, linear feet of pipe, new businesses created, new
programs developed, new strategic plans developed, new telecom sites, patients served, and
project participants. ARC is currently finalizing a new list of performance metrics that will
expand the number of outputs and outcomes that are tracked but not reported in the PAR.

In the Government Accountability Office’s (GAO) report titled GAO Review of Performance
Measures at the Corporation for National and Community Service, GAO identified four
characteristics for sound sets of performance measures. Performance measures should
demonstrate results, be limited to the vital few measures, respond to multiple priorities, and be
linked to the responsible programs. 19

GPRA requires each agency’s performance measures to cover each program activity in its
federal budget. 20 ARC’s federal budget lists the following program activities: 21

      •   Appalachian development highway system
      •   Area development and technical assistance program
      •   Local development districts program

We obtained ARC’s compilation of performance data for the fiscal year 2010 PAR, which is
derived from data in ARC.net. We noted that the projects reported under the four general goals
accounted for approximately $49.5 million, or roughly 66 percent, of the total $75.1 million
funded during the period.

18
     Government Performance Results Act of 1993, Section 1115(a)(1)
19
     GAO Review of Performance Measures at the Corporation for National and Community Service (GAO-10-886)
20
     Government Performance Results Act of 1993, Section 1115(a)
21
     Budget 2011 Appendix: Other Independent Agencies

                                                     13
             Table 2. Projects Reported in the FY2010 PAR by General Goal
                                                       Number           ARC           Percent of Total
                       General Goal                   of Projects      Funds           ARC Funding
            Job Growth: Jobs Created/Retained             142        $ 2,048,160           2.7%
            Infrastructure: Households Served              56         21,376,602           28.5
            People: Students/Workers Improved              73         22,469,252           29.9
            Highways: Access Road Miles                    18          9,146,831           12.2
            Total                                         220        $49,527,805          65.9%
            Source: OIG from ARC.net data
            Note: The column totals do not sum correctly as some projects included performance results in
            more than one general goal.



All ARC-assisted projects are required to contain detailed outcome measurements from which
grant expenditures can be evaluated. 22 Our review of ARC’s compilation of performance data for
the fiscal year 2010 PAR also found that 144 of the 467 projects funded did not have any
projected performance metrics. As shown in the table below, the total funding for those projects
was approximately $14.7 million, or 19.6 percent, of the total $75.1 in projects funded during the
year.



     Table 3. FY2010 Projects with No Performance Metrics by Project Category
                                                                Number
                             Project Category                  of Projects      ARC Funds
                     Business Development                          14          $ 1,538,672
                     Community Development                          8               852,600
                     Education and Job Training                    13             1,074,023
                     Environment and Natural Resources              5               420,000
                     Health                                         1                30,000
                     Highways and Access Roads                      3                     -
                     Leadership and Civic Capacity                  6               260,957
                     Local Development District
                        Planning and Administration                 72            7,044,355
                     Research and Technical Assistance              22            3,466,563
                     Total                                          144        $ 14,687,170
                     Source: OIG from ARC.net data




22
     ARC Code, Section 7.3(c)9

                                                         14
While GPRA allows for the aggregation, disaggregation, or consolidation of program activities,
the aggregation or consolidation cannot “omit or minimize the significance of any program
activity constituting a major function or operation”. 23 As shown above, roughly half of the
projects that were not assigned performance metrics were grants for planning and administration
at Local Development Districts (LDDs), which are listed in ARC’s federal budget. 24

Providing for, and reporting on, performance metrics for LDDs would reduce the percentage of
fiscal year 2010 projects without performance metrics from 19.6 percent to 10.2 percent, and
would increase the percentage of projects reported in the PAR from approximately 66 percent to
roughly 75 percent. We believe ARC should, prior to implementing its new performance metrics,
review its methodology and formally assess whether its reported performance metrics
sufficiently report the results of operations or if additional performance metrics should also be
reported.




23
     Government Performance Results Act, Section 1115(c)
24
     In response to OIG Inspection Report 09-03 in July 2009, ARC management stated that ARC was working with
     the LDDs to “develop appropriate metrics and devise a method for reporting such data in accordance with our
     established goals.” In a March 25, 2011 policy memorandum titled Documentation and Administrative
     Requirements for ARC E-Files, ARC stated it will require LDD and Consolidated Technical Assistance grants to
     contain performance measures beginning in 2012. As a result, we did not make a recommendation in this report
     for reporting performance results for these grants.

                                                        15
                                    Recommendations



We recommend ARC’s Executive Director require that:

   1. ARC’s disclosures in the PAR incorporate or be modified to ensure proper and adequate
      disclosures for: the approximate date when actual performance results information will
      be available, an assessment of the completeness and accuracy of reported performance
      data, ARC’s actual use of performance results, the project selection methodology utilized
      for validation visits, and the level of assurance obtained from validation visits and
      project evaluations.
   2. ARC’s PAR provide a more complete reporting of prior actual results, and update prior
      actual results when information is available.
   3. ARC implement policies and procedures to ensure that actual performance results
      reported by grantees are accurate, consistently measured, and adequately supported. The
      policies and procedures should include:
          a. Written procedures for entering performance information into ARC.net to ensure
             recorded data is complete and accurate.
          b. A defined list of performance metrics, including the methodology for calculating
             them and requirements for the adequacy and retention of supporting
             documentation. This guidance should be provided to grantees to ensure ARC is
             receiving consistent results from all grantees.
          c. Using the survey and/or validation visit processes to obtain documentation from
             grantees supporting self-reported performance results.
   4. ARC’s PAR only recognizes ARC program results in proportion to the direct effects of
      its funding, as recommended by OMB, or identify an alternative measure that adequately
      portrays project results were not fully funded by ARC.
   5. ARC develop and implement a systematic approach to assure states are aware of and use
      performance results during their project selection process
   6. Consistent with the requirements of the ARC Code and GPRA for all budgeted programs,
      that ARC develop evaluative metrics and report results using those metrics in its PAR
      reporting.




                                             16
                  Management’s Response to Draft Report


This memorandum responds to the Draft Inspection Report on the ARC's Performance Measures
from the ARC Inspector General's Office. While the Report contains several valuable
suggestions for improving the ARC Performance Measurement system, its primary
recommendations would require the Commission to undertake extensive and detailed follow-up
reviews of project performance for each grant funded by ARC. We do not agree that our method
of collecting and confirming results, which relies on in-depth validation visits and periodic program
evaluations, does not comply with the general requirements of Government Performance and
Results Act (GPRA) and OMB Circular A-11. We believe the Commission has adopted and
continues to implement an efficient method of tracking project results within budgetary constraints
that has shown itself to be an effective aid to the evaluation of Commission programs. '

When GPRA was enacted Congress made clear that performance measurement was not
intended to "be a major additional cost item or paperwork burden imposed on Federal programs. "
S. Rep. No. 103-58, at 13 (1993) The Government Accountability Office (GAO) has confirmed
that it expects agencies to take "reasonable cost" into consideration in designing performance
plans and specifically “the extent to which benefits obtained from providing the data outweigh the
costs of producing it. " GAO/GGD-1O. 1. 2D Guide to Assessing Agency Annual Performance
Plans, p. 40. GAO has also recognized sampling as a legitimate alternative method when "the
                                                                                2
time and cost of collecting comprehensive data can be burdensome. " GAO/GGD-99-16
Measuring Performance Results, p.16.

Within this framework, the Commission has been providing performance reports on its programs
since 1998 using essentially the same format. This format emphasizes the collection of data
related to the expected outcomes of ARC funded projects followed up by in-depth validations of a
significant number of projects annually with periodic independent results evaluations of major
programs and initiatives.




1
  We note that the Commission is not subject to the specific requirements of GPRA because it is not a
Federal Agency. The Commission, however, has voluntarily complied with GPRA since it was enacted.
2
  It is not clear from the Draft Report whether it was prepared with the understanding that a large number of
ARC projects, often more than half in a year, are not directly administered by ARC but by another federal
agency. Typically for these projects, ARC will have no direct contact with the Grantee after project approval.
This element of the design of the ARC program was intended in part to minimize its administrative cost and
maximize the flow of grant dollars to projects. To impose an additional data collection requirement on ARC
for these projects would eliminate this benefit of the ARC program by increasing ARC's administrative budget
by an unacceptably large amount.




                                                      17
     This approach has provided important data to support the Commission's development of its two
     most recent Strategic Plan documents in 2004 and 2010. Accordingly, the Commission does not
     agree with the Draft Report's suggestion that ARC should abandon its proven effective method of
     measuring results and adopt a much more burdensome and costly method, which would involve
     returning to each grantee at regular intervals to update project results and require extensive
     supporting documentation. The Commission is especially unwilling to act upon such a
     recommendation as there is no clear indication that such an approach would be productive of
     increased benefits for the ARC program or the Region.


     The Commission, however, is appreciative of several worthwhile recommendations for improving
     the quality of its performance measurement efforts contained in the Draft Report. Listed below
     are several actions we have taken or intend to take in response to the contents of the Draft
     Report.

1.   ARC conducts a thorough and unbiased selection process for reviewing a sample of projects for
     annual validation, taking into consideration many factors, including cost-effectiveness of traveling
     to site, grant scale/scope, and maturity of outcomes. However, ARC will clarify this process by
     unequivocally stating in the new guidelines (attached) that under no circumstances will an ARC
     project be excluded simply based on the possibility that the project may not be able to support
     performance results. Also, the guidelines will clarify that statistical or random
     sampling is not ideal for the purposes of the validation visits because of the diversity and scope
     of ARC project types. Developing a rough sample of ARC projects based on geographical and
     project-type variety is more meaningful for program assessment because it allows for diverse
     and innovative projects to be reviewed.
2.   ARC believes it makes a good faith effort to corroborate stated final performance measures
     during its onsite visits, including gathering available documentation such as rosters of
     students/trainees, tally of number of businesses/organizations assisted, participation
     surveys/questionnaires, evidence of equipment purchased, and photo/news-related articles when
     appropriate. Nevertheless, we recognize that we have a responsibility to strengthen the system
     and make these requirements clearer and more consistent for all site visits. Therefore,
     we will ask for relevant documentation to support evidence of performance measures. In
     addition, we will strive to ensure that all grantees are aware of the purpose of the visit
     beforehand and have adequate time to gather final documentation, especially if this requires
     extra work on the part of the grantee. Note that in most cases the grantee wishes to have this
     information not just for other funders who want to better account for their investments, but also
     for internal program review and assessment.
3.   ARC will improve its system for disseminating performance reports by providing a report to the
     ARC local development districts and the ARC states at the annual Development District
     Association of Appalachia (DDAA) conference held in March. The report will cover the validation
     visits conducted during the past year and the project evaluation reports concluded during the
     past year. Approximately 300 of the Commission's key partners and the Region's funding
     decision makers attend the DDAA annual conference. Since the DDAA members package
     projects for the Commission and the State partners review and develop projects for the
     Commission, a presentation at the DDAA conference provides an opportunity to guide future



                                                        18
ARC investments by sharing validation and evaluation results. In addition, starting in FY 2012,
ARC will identify 40 to 60 validated projects to feature in various forums as examples of best
practice for the 4 ARC goal areas. The examples will be highlighted on the ARC webpage, at
conferences and identified for field visits for staff and our states.
  4.   The Commission believes that its performance measurement presentation accurately
       displays the level of the Commission's participation in the projects it funds and the amount
       of additional investment in the Region by other funders. We note, however, that OMB has
       under consideration a government-wide approach to reporting results derived from
       projects with multi-agency funding. ARC will follow OMB guidance on this matter when it is
       issued.
  5.   The performance review noted that all budgeted programs do not have evaluation metrics.
       In FY2012 ARC will develop and use performance measures for all ARC grants. The
       Consolidated Technical Assistance Grants (14 projects in FY2010), the LDD
       Administrative Grants (72 projects in FY201O), and other grants currently without
       measures (50 projects in FY2010) will have new measures in FY2012. Research projects
       noted in the performance review should be considered contracts not grants and contracts
       are not required in the ARC Code to have performance metrics.




                                                    19
                        Office of Inspector General Comments


We concur with the actions planned. With respect to overall comments, including concerns and
disagreements with recommended actions relative to obtaining, verifying and reporting on actual
results, we recognize ARC’s positions including the costs associated with some aspects of GPRA
implementation. As previously noted we also recognize and appreciate that ARC voluntarily
implemented GPRA, has allocated considerable resources to this effort and has made substantial
strides towards implementation of GPRA requirements.

However, since actual and updated results are a key element of GPRA we continue to
recommend that ARC consider actions that will better identify and update actual results for
comparison with estimated results noted in grant approvals. Use of periodic surveys to grantees
and additional use of grant close out reports would provide updated information at limited costs.

Absent additional actions with respect to performance results, and consistent with ARC cost
concerns, we recommend that ARC enact the alternative form permitted by the GPRA with
respect to issues for which cost benefits of additional actions are not considered practical.

Another comment pertains to reporting of results when ARC’s investment is small compared to
total investments, including other Federal funds, matching funds and leveraged private
investments in approved projects. OMB previously recognized the difficulty of performance
measurement since ARC co-funds projects with other agencies but recommended that ARC
revise performance measurement methodology to eliminate double-counting of performance.

The ARC response notes that OMB is considering a government-wide approach on this issue and
it will follow future OMB guidance on this matter. Although the FY 2010 Performance and
Accountability Report notes the dollar extent of ARC and other investments, as a minimum and
pending additional OMB guidance, ARC should, in our opinion, note that reported results reflect
the outcomes of the total of project investments. Use of a standard percentage reflective of
results attributable to other investments is also an interim alternative that reduces the potential
for double-counting of performance by Federal agencies pending additional OMB guidance.




                                                20
                   Appendix A: Objectives, Scope, and Methodology



The objectives of this inspection were to assess ARC’s performance metrics and the associated
results, particularly their quality, recording accuracy, reporting accuracy, and their usage.
Specifically, the objectives were met by reviewing whether:

   •   ARC is reporting project performance metrics and results in accordance with accepted
       criteria and best-practices;
   •   ARC uses performance results to make appropriate program changes;
   •   ARC-wide and program metrics provide a meaningful method to measure performance of
       projects;
   •   ARC’s validation visits provide assurance that ARC receives accurate long-term results
       information; and
   •   ARC’s procedures and controls ensure grantees report accurate performance results to
       ARC.

Our audit methodology included (1) review of ARC project files, policies and procedures, and
reports; (2) interviews with ARC staff; (3) review of electronic data from ARC’s grant
management system (ARC.net); and (4) contacting federal agencies to identify best-practices.
We reviewed for relevant guidance and criteria, including GPRA, GAO and other related reports,
and ARC Code. We did not review performance information related to the Appalachian
Development Highway System.

The inspection covered ARC’s fiscal years 2007 through 2009, with updates for some
information through the current period. We conducted our fieldwork in December 2010 through
February 2011 at the Appalachian Regional Commission office in Washington, DC, and the
Department of Commerce, Office of Inspector General office in Seattle (DOC OIG),
Washington. Our inspection was performed in accordance with the Quality Standards for
Inspections adopted by the Council of Inspectors General on Integrity and Efficiency, dated
January 2005, and under the authority of the Inspector General Act of 1978, as amended.

The DOC OIG, under a Memorandum of Understanding with the ARC OIG, provided an auditor
who did much of the field work and report writing for this inspection. The auditor’s work was
supervised by the ARC OIG who also contributed to the report and held discussions with
management.




                                              21
         Appendix B: ARC Performance Validation Program- Project Selection

                              ARC PERFORMANCE VALIDATION PROGRAM

                                     VALIDATION PROJECT SELECTION:

Guiding Principle

ARC strives to conduct a thorough and unbiased selection process for reviewing a sample of
projects for annual validation, taking into consideration many factors, including cost-
effectiveness of traveling to site, grant scale/scope, possibility of visiting project in future years,
and maturity of outcomes.

Under no circumstances will an ARC project be excluded simply based on the possibility that the
project may not be able to support performance results.

Statistical or random sampling is not ideal for the purposes of the validation visits because of
the diversity and scope of ARC project types. Developing a rough sample of ARC projects based
on geographical and project-type variety is more meaningful for program assessment because it
allows for diverse and innovative projects to be reviewed.

Selection Process


Each April, Regional Planning & Research (RP&R) staff runs a report in arc.net on all projects
funded two and three fiscal years prior. This yields a universe of approximately 900 projects.

RP&R staff then removes projects that are still open, about 35-40% of the entire list, yielding
approximately 350 closed projects eligible for review.

RP&R staff immediately excludes projects not appropriate or eligible for onsite validation visit.
These include LDD administration grants, consolidated technical assistance grants, conferences,
research reports and internships. Additionally, approximately 45 projects having already
received validation visits within the past five years are excluded.

This list of approximately 185 projects is sent to each project coordinator for their expertise and
comment on the performance, effectiveness, and appropriateness of each project. Based on
comments provided by the project coordinators and additional research, a list of about 100
projects is sent to the state program managers for their comment and review.

Note that projects are excluded from the list only for very explicit reasons. These include
evidence that the project has experienced significant management turnover, precluding the
likelihood that new management has sufficient knowledge of the project to provide adequate
feedback. Similarly, the project management position may be vacant and there may be no one




                                                          22
onsite to discuss the project. Projects may be suggested for review the following year, when
performance outcomes are more likely to mature. Finally, in certain (rare) cases projects may
be excluded if there is knowledge of an ongoing legal dispute and/or Inspector General
investigation.

Finally, staff reaches a balance of projects based on state (5-7 projects each), type, and
performance measures. The goal is to visit a diverse mix of ARC project types across all 13
states while visiting at least 12 construction/infrastructure, 12 education/health/ leadership,
and 12 business development/entrepreneurship projects since they fall under the three main
ARC goals (excluding highways) and the three main performance measures ARC reports to the
Office of Management and Budget: households served, students/workers with improvements,
and jobs created. If we find that there are major gaps, we may go back and pull projects that
were closed between the first data pull and closer to the time of the visits to see if they can be
added to the list.


Projects that showcase innovation or can be replicated across states are always encouraged,
mainly for the potential for lessons learned and broader information dissemination including
the ARC web site and Appalachia magazine stories.

The final list comprises approximately 70-80 projects that are closed and thoroughly
researched. Inevitably, some projects are not reviewed due to scheduling difficulties,
geography, timing and other issues.

Under certain circumstances where few infrastructure projects are found within a given state,
staff will look at projects funded four fiscal years prior to determine suitability for visitation.
Including these additional projects may help ensure there is a balanced mix of project types for
each of the three main ARC goal areas.

Ultimately, RP&R staff visit a rough sample of approximately 55-65 projects for onsite
validation and review.




                                                        23
